No. 19A_______
In The
SUPREME COURT OF THE UNITED STATES
October Term 2019
AIRBUS HELICOPTERS, INC.,
Applicant,
v.
MARY RIGGS, ET AL.,
Respondents.

Application for an Extension of Time Within Which
to File a Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

APPLICATION TO THE HONORABLE
ELENA KAGAN, AS CIRCUIT JUSTICE

CARTER G. PHILLIPS*
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidley.com
DAVID R. CARPENTER
SIDLEY AUSTIN LLP
555 West Fifth Street
Los Angeles, California 90013
(213) 896-6000
Counsel for Applicant Airbus Helicopters, Inc.
February 6, 2020

* Counsel of Record

PARTIES TO THE PROCEEDING
Petitioner (defendant-appellant below) is Airbus Helicopters, Inc.
Respondents are Mary Riggs, in her capacity as Personal Representative of the
Estate of Jonathan Neal Udall, Philip Udall, and Marlene Udall (plaintiffsappellees below), as well as Matthew Hecker, Daniel Friedman, Brenda Halvorson,
Geoffrey Edlund, Elling B. Halvorson, John Becker, Elling Kent Halvorson, Lon A.
Halvorson, Papillon Airways, Inc. d/b/a Papillon Grand Canyon Helicopters, Xebec
LLC, and Scott Booth (defendants-appellees below).

i

STATEMENT PURSUANT TO RULE 29.6
Airbus Helicopters, Inc. is a non-governmental corporation. No publicly held
corporation owns 10% or more of Airbus Helicopters, Inc.’s stock. Airbus
Helicopters, Inc. is wholly owned by Airbus Group, Inc., which in turn is wholly
owned by Airbus SE, a publicly held company.

ii

APPLICATION FOR EXTENSION OF TIME
Pursuant to this Court’s Rules 13.5, 22, and 30.3, and pursuant to 28 U.S.C.
§ 2101(c), Applicant Airbus Helicopters, Inc. (“AHI”) hereby requests a 30-day
extension of time, to and including March 20, 2020, within which to petition for a writ
of certiorari in this case. Absent an extension, the petition would be due on February
19, 2020. This application is made at least 10 days before that date.
JUDGMENT FOR WHICH REVIEW IS SOUGHT
The judgment sought to be reviewed is the decision of the United States Court
of Appeals for the Ninth Circuit in Riggs v. Airbus Helicopters, Inc., 939 F.3d 981 (9th
Cir. 2019) (attached hereto as Exhibit A).
JURISDICTION
The Ninth Circuit issued its decision on September 20, 2019. The court denied
AHI’s petition for panel rehearing and rehearing en banc on November 21, 2019
(unreported order attached hereto as Exhibit B). This Court’s jurisdiction will rest
on 28 U.S.C. § 1254.
REASONS JUSTIFYING AN EXTENSION OF TIME
AHI respectfully requests a 30-day extension of time, to and including March
20, 2020, within which to file a petition for a writ of certiorari seeking review of the
decision of the United States Court of Appeals for the Ninth Circuit. An extension is
warranted because of the importance of the issues presented and undersigned
counsel’s need for additional time to prepare a petition that will assist this Court in
deciding whether to grant certiorari.

1

1.

This case concerns the proper interpretation of the “acting under”

requirement in the Federal Officer Removal Statute, 28 U.S.C. § 1442(a)(1). AHI is
a manufacturer and seller of Airbus helicopters and has also been delegated the
authority by the Federal Aviation Administration (“FAA”) to issue certifications on
FAA’s behalf—a formal delegation of federal authority that is memorialized by
statute, regulation, agency orders, and a memorandum of understanding. See 49
U.S.C. § 44702(d)(1); 14 C.F.R. §§ 183.41-.67; Establishment of Organization
Designation Authorization Program, 70 Fed. Reg. 59,932, 59,933 (Oct. 13, 2005);
FAA, Organization Designation Authorization Procedures, Order 8100.15 ¶ 1-1
(2006); Riggs, 939 F.3d at 984-85 (majority op.), 990-92 (O’Scannlain, J., dissenting).
Plaintiffs assert state-law tort claims arising from the crash of an Airbus helicopter
and allege, in pertinent part, that the aircraft’s fuel system did not meet certain
crash-resistance standards. AHI removed the action under 28 U.S.C. § 1442(a)(1), on
the ground that Plaintiffs’ claims relate to AHI’s role in carrying out the duties
delegated to it by FAA.
2.

In a 2-1 decision, the Ninth Circuit held that AHI did not qualify for

“acting under” status.

The majority found that the FAA’s formal delegation of

authority was essentially irrelevant and amounted to “mere compliance with federal
directives” (or “self-certification”) and was insufficient to support removal under this
Court’s decision in Watson v. Philip Morris Cos., 551 U.S. 142 (2007). Riggs, 939 F.3d
at 988-89 & n.6. Judge O’Scannlain dissented, explaining that the majority opinion
“misunderstands the FAA’s regulatory regime and misapplies the Supreme Court’s

2

decision in Watson.” Id. at 990 (O’Scannlain, J., dissenting). As Judge O’Scannlain
recognized, the “fatal flaw” in Watson was that the defendant, despite being heavily
regulated, had “no evidence of any delegation of legal authority” from a federal
agency, id. at 994 (quoting Watson, 551 U.S. at 156) (emphasis in original), whereas
in this case, there was “clear evidence of delegation,” id. at 993. Indeed, the Solicitor
General in Watson specifically identified the FAA’s delegation scheme as one that
would support “acting under” status and removal. Id. (citing Br. for the United States
as Amicus Curiae Supporting Petitioners, Watson v. Philip Morris Cos., 551 U.S. 142
(2007) (No. 05-1284), 2007 WL 621847, at *26).
3.

AHI’s forthcoming petition will present a substantial question on an

important issue—namely, the proper interpretation of Watson in cases in which there
is a formal delegation of agency authority, and specifically in the important context
of the FAA’s regulatory scheme. Further, this is an issue as to which there is
considerable confusion and a split among the Circuits. Three courts have addressed
this issue and not only have reached different results, but also have adopted three
different rationales. Compare Magnin v. Teledyne Cont’l Motors, 91 F.3d 1424, 142829 & n.1 (11th Cir. 1996) (holding that FAA’s express delegation of authority to
private individuals gives rise to “acting under” status), with Lu Junhong v. Boeing
Co., 792 F.3d 805, 809-10 (7th Cir. 2015) (rejecting removal based on the theory that
a private party must be engaged in “rule making rather than rule compliance” in
order to be “acting under” a federal officer), with Riggs, 939 F.3d at 989 (finding

3

removal improper but stating that “we decline to adopt the rule-making-rulecompliance distinction articulated by the Seventh Circuit”).
4.

There is good cause for a 30-day extension of time to file a petition for

writ of certiorari in this case. An extension is warranted because of the importance
of the issue presented, which requires careful attention and time to prepare the
petition. The extension of time also is necessary because of the press of other client
business. For example, undersigned counsel of record will present oral arguments in
NASDAQ Stock Market, LLC v. SEC, No. 18-1292, and NASDAQ Stock Market, LLC
v. SEC, No. 18-1327, in the U.S. Court of Appeals for the D.C. Circuit on February
18, 2020, and is responsible for preparing the opening brief in J.P. v. Barr, No. 1956400, due on February 21, 2020, in the U.S. Court of Appeals for the Ninth Circuit.
Other counsel responsible for working on the petition, Mr. Carpenter, likewise has
conflicting obligations, including presenting oral argument in the California Court of
Appeal on February 21, 2020, and handling briefing on two separate matters headed
for trial, for which there are hearings on February 5, 6, 7, and 19, 2020, as well as
several pre-trial filing deadlines between now and February 19, 2020. Moreover, an
extension will not cause any material delay in the consideration of the petition; with
or without an extension, the petition will be set for conference before the end of this
Term and, if the petition is granted, the case would not be set for argument until next
Term.

4

CONCLUSION
For these reasons, AHI respectfully requests an extension of 30 days, to and
including March 20, 2020, within which to file a petition for a writ of certiorari in this
case.
Dated: February 6, 2020

Respectfully submitted,
/s/ Carter G. Phillips
CARTER G. PHILLIPS*
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidley.com
DAVID R. CARPENTER
SIDLEY AUSTIN LLP
555 West Fifth Street
Los Angeles, California 90013
(213) 896-6000
Attorneys for Applicant/Petitioner
Airbus Helicopters, Inc.
*Counsel of Record

5

